CERTIFICATE OF SERVICE
I, Veena Sharma (Plaintiff-Appellant), hereby certify that on
the below entered date, I served one (1) copy of the Brief via
electronic filing upon the court. I further certify that I
served one (1) copy each of the Brief to following DefendantsAppellee via mail and/or email. Thanks.
1. Attorney Domenic S. Terranova
Email: esqdt@Comcast.net
2. Andover Gardens Condominium Trust
12 Crescent Drive
Andover, MA 01810
3. Attorney Michael B. Feinman
Email: mfb@feinmanlaw.com
4. Attorney Peter J. Caruso, Sr
Email:
pearuso@carusoandcaruso.com,pcarusosr@carusoandcaruso.com
Dated: July 6, 2020
Respectfully Submitted
Veena Sharma (PRd-SE)

10 Wedgewood Drive
Andover, MA 01810
Phone: 978-290-3275
Email: j aipuri@aol.com

td

Additional material
from this filing is
available in the
Clerk's Office.

